1200 New Hampshire Ave. NW, Suite 700
Washington, DC 20036
202-955-0095 /
@BecketLaw
www.becketlaw.org

March 17, 2020
By Courier and Electronic Filing
Honorable Scott S. Harris
Clerk of the Court
Supreme Court of the United States
One First Street N.E.
Washington, D.C. 20543
Re:

Sharonell Fulton, et al. v. City of Philadelphia, et al., No.19-123

Dear Mr. Harris:
We represent Petitioners in the above-captioned case. Having conferred with
opposing counsel, we write to respectfully request a 48-day briefing extension under
Rule 30.4 for both parties’ briefs on the merits, which would result in the following
schedule:
May 27, 2020 for Petitioners’ Brief on the Merits and the Joint Appendix
June 3, 2020 for Amici supporting Petitioners or neither party
August 13, 2020 for Respondents’ Brief on the Merits
August 20, 2020 for Amici supporting Respondents
September 14, 2020 for Petitioners’ Reply Brief
Respondents consent to this request. This requested extension would help counsel
manage other matters pending before this Court and other courts. This schedule
would allow the Court to hear this case any time during the October sitting.
Respectfully submitted,

cc: All counsel of record

/s/ Mark L. Rienzi
Mark L. Rienzi
Lori H. Windham
Nicholas R. Reaves
William J. Haun
Jacob M. Coate
Counsel for Petitioners

